 Office of Inspector General
      Audit Report


  CHALLENGES WITH IMPLEMENTING
NEAR-TERM NEXTGEN CAPABILITIES AT
CONGESTED AIRPORTS COULD DELAY
            BENEFITS
       Federal Aviation Administration

       Report Number: AV-2012-167
       Date Issued: August 1, 2012
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Challenges With Implementing Near-                                     Date:    August 1, 2012
           Term NextGen Capabilities at Congested Airports
           Could Delay Benefits
           Report No. AV-2012-167
           Federal Aviation Administration

  From:    Jeffrey B. Guzzetti                                                         Reply to
                                                                                       Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Acting Federal Aviation Administrator

           The Federal Aviation Administration (FAA) estimates that there are about
           7,000 aircraft in the air over the United States at any given time. To better
           manage this traffic and meet future air travel demands, FAA is developing the
           Next Generation Air Transportation System (NextGen), a satellite-based air
           traffic control system intended to replace the current ground-based system.
           NextGen involves a significant overhaul of the National Airspace System (NAS)
           that will require multibillion-dollar investments from both Government and
           airspace users.

           In September 2009, an RTCA 1 task force of government-industry
           representatives—established at FAA’s request—made 32 recommendations for
           accelerating NextGen’s deployment 2 (see exhibit A). These recommendations
           were intended to quickly generate airspace user benefits, support cross-cutting
           improvements to air traffic management and communications, and encourage
           operator investment and confidence in FAA’s ability to implement new
           capabilities.

           The Chairmen and Ranking Members of the House Committee on Transportation
           and Infrastructure and its Subcommittee on Aviation asked us to review FAA’s
           actions to address the task force’s recommendations. Accordingly, our audit

           1
               Organized in 1935 as the Radio Technical Commission for Aeronautics, RTCA, Inc., is a private, not-for-profit
               corporation that develops consensus-based recommendations regarding communications, navigation, surveillance,
               and air traffic management (CNS/ATM) system issues. It functions as a Federal Advisory Committee.
           2
               RTCA, “NextGen Mid-Term Implementation Task Force Report,” September 9, 2009.
                                                                                                         2


objectives were to assess the extent to which FAA is (1) responding to the
recommendations, including adjusting its budgets and establishing mechanisms
for continued industry collaboration, and (2) addressing barriers that may hinder
its ability to successfully implement the recommendations.

As agreed with the requesters, we assessed FAA’s overall response to the task
force recommendations, but focused specifically on FAA’s efforts to implement
an initiative known as “metroplex,” which aims to improve the efficiency of
airspace that affects multiple airports near large metropolitan areas. One of the
most critical task force recommendations called for FAA to expedite its efforts to
relieve congestion and delays at major metropolitan area airports by using expert
teams that focus on implementing quality improvements at each location. FAA
launched the metroplex initiative to expedite the delivery of high value
performance-based navigation (PBN) procedures and associated airspace
changes.

On December 21, 2010, we issued an interim report on the status of FAA’s
response to RTCA’s recommendations. 3 At that time, we reported that FAA was
incorporating the RTCA’s recommendations in its NextGen plans but had not
specified how it would execute key initiatives for addressing delays in major
metropolitan areas.

We conducted this audit in accordance with generally accepted Government
auditing standards prescribed by the Comptroller General of the United States.
Exhibit B details our scope and methodology. Exhibit C lists the specific
locations visited or contacted.

RESULTS IN BRIEF
While FAA quickly incorporated the task force’s recommendations into its
NextGen strategic plans and budgets and established a mechanism for continued
industry collaboration, its efforts are delayed in key areas such as metroplex,
airport surface operations, and data communications. While FAA has focused on
one of the most critical recommendations—metroplex airspace—it missed
milestones at the first two sites due to unresolved staffing issues and lack of a
project plan. The expected completion date for all metroplex sites is now
15 months later than FAA’s earlier, more aggressive plans. Further, industry
representatives are concerned that the effort may not deliver all planned/desired
benefits since FAA has focused only on near-term airspace and procedure
improvements rather than maximizing new technologies and advanced procedures

3
    OIG Controlled Correspondence CC-2011-001, Letter to Chairmen Oberstar and Costello and Ranking Members
    Mica and Petri Regarding FAA's Efforts To Implement RTCA Task Force Recommendations for NextGen,
    December 21, 2010. OIG reports are available on our Web site at http://www.oig.dot.gov.
                                                                                                        3


as recommended by the task force. For example, of the 136 metroplex solutions
proposed for the first 7 metroplex sites, only 3 are for the more advanced
procedures that allow aircraft to fly more precise routes and curved approaches to
airports. Additionally, FAA has not yet integrated efforts from other related
initiatives, such as better managing surface operations, into its metroplex
initiative. As a result of continued delays, uncertain benefits, and ineffective
communication on key metroplex initiatives, airspace users are skeptical about
FAA’s ability to implement the task force recommendations and remain reluctant
to equip with new avionics.

FAA has not yet resolved many of the barriers that will impede the
implementation of the task force recommendations. These barriers include
working across diverse agency lines of businesses, updating policies, streamlining
the process for implementing new flight procedures, applying environmental
regulations, upgrading controller automation tools, and training controllers on
new advanced procedures. While FAA has plans to address these barriers,
progress has been slow, and none of its initiatives have been fully implemented.
For example, in September 2010, FAA completed a study 4 that identified
21 recommendations for streamlining the process for developing and deploying
new flight procedures; however, FAA has yet to implement the majority of the
recommendations and estimates it may take as long as 5 years to implement all of
them. Removing the barriers to fully implementing the metroplex initiative will
be difficult because FAA does not have a process to effectively track, resolve,
and mitigate specific barriers (e.g., procedures and training) identified at each
metroplex site. As a result, FAA’s metroplex effort and implementation of other
recommendations will likely face delays, and benefits may not be realized within
recommended timeframes.

We are making recommendations to improve FAA’s ability to effectively
implement the task force recommendations in a timely manner while maintaining
industry coordination and support.

BACKGROUND
In January 2009, FAA asked RTCA to reach a consensus on the NextGen
operational improvements planned for the 2012–2018 timeframe. In September
2009, the RTCA task force delivered its final report to FAA, which identified the
following overarching issues for advancing NextGen:
    • Users are willing to support FAA communications, navigation, and
      surveillance infrastructure programs that require user investments only if


4
    FAA’s Navigation Procedures (NAV Lean) Instrument Flight Procedures Final Report, September 2010.
                                                                                                              4


      those programs provide a clear path to immediate and tangible benefits to the
      users.

    • Focusing on delivering near-term operational benefits, rather than on the
      entire infrastructure, would help gain operator confidence in FAA plans and
      encourage users to invest in NextGen. A key element for this is to obtain
      industry and FAA agreement on common metrics to measure benefits.

    • Assigning responsibility, accountability, authority, and funding within the
      Agency is critical to accomplish all required non-infrastructure tasks (i.e.,
      development of procedures and policy) and to achieve NextGen benefits.

The task force made 32 recommendations mainly in 5 primary areas—surface,
runway access, metroplex, high-altitude cruise, and access to the NAS—calling
for FAA to take advantage of existing technologies and onboard aircraft
equipment that can quickly generate benefits.

DELAYS IN ADDRESSING KEY TASK FORCE
RECOMMENDATIONS ARE DISCOURAGING INDUSTRY
INVESTMENT IN NEXTGEN
While FAA quickly endorsed the task force’s recommendations by incorporating
them into its NextGen strategic plans and budgets and establishing a mechanism
for continued industry collaboration, it has made limited progress in
implementing them. FAA’s efforts have been delayed in key areas, such as airport
surface operations, metroplex, and data communications. Additionally,
unresolved issues with the metroplex initiative could slow its deployment,
increase costs, and delay the delivery of much needed benefits at congested
airports. As a result, industry representatives have expressed concerns over
FAA’s delayed execution of the task force recommendations and the Agency’s
ineffective communication on projects—which may ultimately make users
reluctant to invest in NextGen equipage and advance NextGen at key locations.

FAA Is Responding to Task Force Recommendations but Has Made
Only Limited Progress in Areas Critical for Improving the
Performance of the NAS
Within 4 months of the RTCA report, FAA issued a plan to implement all task
force recommendations and incorporated its response in the NextGen
Implementation Plans 5 as recommended by the task force. In addition, FAA
allocated over $600 million in funding for fiscal years 2011 and 2012 to fund task

5
    FAA’s NextGen Implementation Plan is an annual plan that sets out FAA’s vision for NextGen, now and into the
    midterm. The plan further identifies the goals FAA has set for technology and program deployment and the
    commitments FAA has made in support of that vision.
                                                                                                              5


force-related activities. Further, FAA established the NextGen Advisory
Committee (NAC) 6 in September 2010 to address the task force’s
recommendation for providing a mechanism for continued industry collaboration.
However, while FAA has begun work to address all of the recommendations,
FAA’s efforts in critical areas, such as the metroplex, airport surface operations,
and data communications have been delayed. For other recommendation areas,
such as runway access and high altitude cruise, FAA is not planning according to
the timelines and locations recommended by the task force.

    • Metroplex Airspace (Improve airspace affecting multiple airports near
      large metropolitan areas)—FAA has focused most of its efforts on
      metroplex. Specifically, FAA has identified 21 metroplex sites, 7 developed a
      method to prioritize them, and completed 7 studies to propose potential
      solutions involving airspace and procedures in each metroplex. 8 However,
      problems with selecting FAA managers to fill project lead positions and
      developing a project plan delayed the design and implementation phases for
      the first two sites. The expected completion date for all metroplex sites is 15
      months later than earlier, more aggressive plans.

    • Airport Surface Operations (Improve management of airport taxiways,
      gates, and parking areas)—While FAA has various airport surface initiatives
      underway, the Agency has yet to integrate these initiatives with its metroplex
      plans as envisioned by the task force. In March 2011, FAA designated an
      office director with responsibility for implementing surface initiatives—
      18 months after the task force recommended it. This is a high priority for the
      taskforce, yet it took FAA a considerable amount of time to appoint an agency
      employee to lead and manage this effort. Ongoing surface management
      projects span multiple air traffic organizations without a coordinated plan.

    • Runway Access (Improve the use of converging or closely spaced runways
      during low visibility conditions)—Runway studies are ongoing. FAA adopted
      the task force dates and locations for closely spaced parallel operations
      projects but has not defined locations and dates for implementing key
      recommendations (e.g., a precision surveillance system for runways and a new
      automated tool to maximize benefits of routes).


6
    The NAC is a Federal advisory committee that will develop recommendations for NextGen priorities with an
    emphasis on the midterm (through 2018). The NAC includes representation from affected user groups, including
    operators, manufacturers, air traffic management, aviation safety, airports, and environmental experts.
7
    Washington, DC; North Texas (Dallas); Charlotte; Atlanta; Northern California; Houston; Southern California;
    New York/Philadelphia; Chicago; Seattle; Las Vegas Valley; South Florida; Boston; Denver; Orlando; Detroit;
    Memphis; Phoenix; Minneapolis-St. Paul; Cleveland; Tampa.
8
    Subsequently, FAA reduced the number of metroplex projects from 21 to 13 by combining some and dropping
    others because of other ongoing airspace and PBN initiatives. The sites dropped were: New York/Philadelphia,
    Minneapolis-St. Paul, Seattle, and Las Vegas Valley.
                                                                                                                       6


     • High-Altitude Cruise (Improve high-altitude flight by better using available
       airspace to increase capacity and reduce delays)—The task force wanted
       FAA to take action in 2011 to expand the use of an existing high-altitude
       automated controller tool for managing aircraft. Instead, FAA focused its
       actions on implementing a longer-term solution called Time-Based Flow
       Management. 9 FAA’s target date for this system is not until November 2014,
       which is about 3 years beyond the timeframe recommended by the task force.

     • Data Communications (DataComm) (Enable more efficient use of
       available or forecast capacity)—Due to delays in modernizing related
       automation that controllers use to manage high-altitude air traffic, FAA’s
       timeline for developing this capability slipped by 2 years, from 2016 to 2018.
       Industry representatives stated that they need assurance that the revised
       implementation date for high altitude is attainable. They view DataComm as
       the key “building block” needed to shift from clearance-based air traffic
       control to NextGen’s concept of more precisely managing aircraft from
       departure to arrival with the benefits of reduced fuel consumption, lower
       operating costs, and reduced emissions.

While FAA has completed portions of its action plan in response to the task force
recommendations, task force representatives remain concerned with FAA’s
overall timelines for these projects. For example, the task force stated that if some
DataComm capabilities are delayed to 2018, as FAA has currently proposed,
airspace users will need to revisit their business cases and commitment to
advance NextGen. Meeting implementation dates is critical to closing a business
case for operator investment. Task force industry representatives emphasize the
need for FAA to shift from planning to implementation.

The task force also expected that FAA would adopt an approach that integrates
key recommendations at critical metroplex sites. For example, in its 2009 report,
the task force recommended surface and runway access improvements
specifically for the Atlanta metroplex. However, FAA limited its metroplex
initiative to only airspace and procedures that can be implemented without any
additional aircraft equipage or improvements to the automation system controllers
used to manage traffic. 10 In the early stages of FAA’s metroplex initiative, task
force leaders encouraged FAA to adopt a more integrated approach by including
surface and runway access improvements in its metroplex effort. In October



9
     Time Based Flow Management enhances system efficiency and improves the traffic flow by leveraging the
     capabilities of controller decision support tools designed to optimize the flow of aircraft into capacity constrained
     areas.
10
     FAA officials told us that the Agency did not commit to an approach that integrates other capabilities in the near-
     term.
                                                                                                                        7


2010, over 1 year after the task force report, FAA tasked the NAC to develop
recommendations on how FAA can better integrate its efforts. 11

FAA Has Efforts Underway To Implement its Metroplex Initiative, but
Delays Have Occurred
The task force and FAA identified the metroplex initiative as a key area that
could provide the most near-term benefits by improving the flow of traffic and
reducing delays at congested airports in 21 major metropolitan areas. Work at
each of these 21 sites will consist of study and design phases that will take about
3 years (see figure 1). FAA first uses study teams 12 to provide a strategic look at
each metroplex site and then uses design and implementation teams 13 to
accomplish its metroplex work. FAA planned the metroplex initiative as a 5 to
7-year effort, but there are unresolved issues with some sites that could slow its
deployment, increase costs, and delay benefits.

Specifically, FAA has completed initial studies at 7 of the 21 locations and has
begun design work at 6 of these locations. 14 Although FAA’s early plans were to
complete work at all metroplex sites by June 2016, the Agency shifted the end
date by 15 months to September 2017 because it determined the initial schedule
was too aggressive. FAA does not consider this a delay because the Agency still
expects to finish implementation within the overall 5 to 7-year timeframe
estimated for the metroplex initiative. However, in addition to a later completion
date, FAA has also reduced the number of metroplex sites. For example, a critical
site with system-wide impacts, such as New York, is not included in FAA’s
current metroplex effort due to an ongoing legacy airspace and procedures
project. Further, this schedule does not reflect adjustments FAA will have to
make once it adopts a more integrated metroplex approach, as recommended by
the task force.




11
     A NAC subcommittee is continuing its effort to reprioritize metroplex sites and make recommendations for
     integrating other capabilities.
12
     Study teams are the first step in the metroplex process to provide a front-end strategic look at each major metroplex.
     These teams analyze the operational challenges, assess current/planed airspace and procedures efforts, explore new
     solution opportunities, and issue a study report with recommended procedure and airspace solutions.
13
     Design and implementation teams are responsible for executing the design, evaluation, and implementation portions
     at each metroplex site.
14
     The seven locations are Washington, DC; North Texas (Dallas); Charlotte; Northern California; Houston, Atlanta,
     and Southern California. Design work has begun at Washington, DC; North Texas; Charlotte; Houston; and
     Atlanta.
                                                                                                           8


                     Figure 1. Notional Timeline for Each Metroplex Site




       Source: FAA

At the first two metroplex locations (Washington, DC and North Texas), delays
of 4 to 5 months from the scheduled start date of design and implementation
occurred due to FAA’s difficulty in establishing a project level agreement
(PLA) 15 and assigning staff. FAA did not complete the metroplex PLA until June
2011, 4 months after the scheduled start date for the first design and
implementation team. Further, after the study teams completed their work at the
first two sites, it took FAA up to 6 months to identify FAA project leads to
oversee the design and implementation work. Part of this delay was due to
reluctance by air traffic facility managers to release selected candidates because
they could not backfill those positions. FAA and industry representatives have
expressed concern that staffing large teams on a continuous, rotational basis for
the next 5 to 7 years will be a significant challenge because there is a lack of
critical expertise in both FAA and industry and the Agency has not successfully
implemented these types of projects in the past. Some industry representatives
suggested that the current process could possibly be streamlined by combining
study and design team efforts to accelerate the timeline.

FAA is also challenged with managing and prioritizing the competing demands to
develop new flight procedures for metroplex and non-metroplex airports. FAA
estimates that in FY 2012 and beyond, 60 to 70 percent of its flight procedure

15
     FAA uses project level agreements to define and document the work agreement and responsibilities between
     different offices within FAA and to provide milestones, deliverables, and spending plans.
                                                                                                                      9


development work will be at the metroplex locations. However, at the same time,
FAA will continue to be involved in developing and implementing flight
procedures for other non-metroplex airports. FAA officials told us that the
Agency plans to prioritize its metroplex work to ensure that both types of projects
will be completed as planned. However, this will be challenging given the
complex and large-scale nature of the metroplex initiative and the fact that FAA
does not have an effective system for prioritizing the development and
implementation of new instrument flight procedures.

Airspace Users Are Concerned That FAA’s Current Metroplex
Initiative Will Not Maximize Operational Benefits
FAA’s current metroplex effort is limited to airspace and procedure
improvements and does not take advantage of new technologies and more
advanced procedures as envisioned by the task force. As a result, airline
representatives are concerned that FAA has not yet clearly defined expected
benefits for proposed metroplex activities and that maximum benefits—shorter
flight paths and fuel savings—may not be achievable. This is important to the
airlines who are key stakeholders in the metroplex initiative. According to the
RTCA task force report, airline representatives stated they will only support
FAA’s metroplex initiative if it provides a clear path to immediate and tangible
benefits. Our review found three primary areas of concerns, described below.

FAA’s Metroplex Plans Have Not Kept Pace With Airlines Already
Equipped for Advanced RNP Procedures
FAA’s metroplex initiative focuses primarily on adding high-value Area
Navigation (RNAV) procedures 16 and optimizing descent and climb profiles.
While these procedures offer some benefits, industry representatives who have
aircraft equipped with advanced avionics are concerned that FAA’s plans are not
taking advantage of more advanced Required Navigation Performance (RNP)
procedures. 17 Three of the seven metroplex study teams suggested that the design
and implementation teams explore RNP procedures but did not include them as
part of their final recommendations. While the RTCA task force recommended
that FAA optimize RNAV procedures everywhere and use RNP where beneficial,
the first 7 study teams proposed only 3 of the 136 possible solutions (2 percent)
for RNP procedures. For those airlines that are equipped with RNP, this creates
the risk that the procedures recommended by FAA will be obsolete and not used
by airlines because they do not allow for more precise and curved approaches.


16
     RNAV is a method of navigation in which aircraft use avionics, such as Global Positioning Systems, to fly any
     desired flight path without the limitations imposed by ground-based navigation systems.
17
     RNP is a form of RNAV that adds on-board monitoring and alerting capabilities for pilots, thereby allowing aircraft
     to fly more precise flight paths.
                                                                                                            10


Airline representatives want FAA to focus its efforts on developing new flight
paths that provide for more precise and curved approaches, rather than the
Agency’s past practice of mostly designing RNAV and RNP procedures that
overlay existing flight paths. In past years, FAA officials viewed this approach as
a necessary step in training pilots and controllers on using the technology. In
addition, FAA designed procedures to accommodate the performance capability
of the least capable RNAV/RNP equipped aircraft to include as many operators as
possible. FAA officials assert that because more aircraft are equipped for and
qualified to use RNAV, it is more prudent to deploy RNAV procedures,
particularly when air traffic controllers are faced with challenges that involve
sequencing equipped and non-equipped aircraft at busy airports. While this
approach may seem logical from an industry-wide perspective, it does not
accommodate the nearly half of all active commercial aircraft that are equipped to
fly RNP procedures with curved approaches. Representatives from air carriers
who are equipped stated that FAA’s approach offers little operational and
financial benefits to airlines. According to those representatives, the approach
using RNAV is based on decades-old technology, and their carriers can conduct
more efficient turns and fly shorter approaches using RNP.

Industry objections to FAA’s focus on RNAV rather than RNP procedures are
particularly well illustrated at the North Texas Metroplex, which includes the two
major Dallas airports—Dallas-Fort Worth International Airport and Dallas Love
Field. A large percentage of major air carrier aircraft that operate at the Dallas
airports have operational approval to conduct advanced RNP operations—over
80 percent at Love Field. Yet, FAA has not developed any RNP procedures for
Love Field; hence, airlines cannot perform RNP operations. Additionally, the
metroplex study team only recommended one RNP procedure at this airport due
to the team’s primary focus on deploying RNAV procedures, lack of experience
with RNP, and desire to avoid extensive environmental studies.

Limitations in FAA’s current metroplex effort may prove problematic at other
sites as well, given the large percentage of commercial aircraft equipped with
RNP. In keeping with the original task force’s findings, a NAC work group also
found that confidence in the benefits and timing of FAA initiatives is critical for
operators to commit to invest in more advanced equipment. 18 As a result, the
work group recommended that FAA develop policies, procedures, and related
improvements for controllers to allow currently equipped aircraft to routinely use
RNP. These actions may also encourage additional carriers to equip with RNP.
Airline representatives also want FAA to move toward implementing new



18
     A Report of the NextGen Advisory Committee in Response to Tasking from the Federal Aviation Administration,
     NextGen Equipage: User Business Case Gaps, September 2011.
                                                                                                                     11


procedures that deconflict air traffic19 between adjacent airports. FAA has already
implemented these procedures at Chicago O’Hare and Midway airports. Similar
actions could measurably increase the capacity of other airports within the
metroplex.

FAA has taken recent action to better enable PBN procedures as part of its
transition to NextGen. In December 2011, FAA published a Notice of Proposed
Rulemaking seeking comments on its proposed strategy to transition from the
legacy navigational aids to one that enables a performance-based system as part
of NextGen. FAA is also exploring ways to decommission its legacy navigation
systems to support RNAV and RNP capabilities using Global Positioning System
navigation.

Firm Estimates of Benefits Have Yet To Be Determined
While FAA expects the metroplex initiative to generate fuel savings, and reduce
track distances and carbon emissions, it has yet to clearly define these benefits
due to a lack of actual operational data. For example, benefits estimated by the
study team for all airlines flying into the Washington, DC, metroplex ranged
widely from a low of $6 million savings per year to a high of $19 million.
Similarly, for the Dallas, TX, study, annual estimates ranged from a low of
$10.3 million to a high of $21.7 million per year for all airlines flying into the
North Texas airports. Industry representatives stated that benefits are difficult to
predict and can only be accurately measured once the lead carrier(s) fly the
procedures in their flight simulators during the design and implementation phase,
which has only recently begun. Without a clearer picture of the potential return on
their investment, airlines are likely to delay making business and operational
decisions.

FAA Does Not Have a Clear Process That Ensures All Projects Are
Properly Reviewed and Prioritized
FAA officials told us that if study teams identify a procedure within a metroplex
project that demonstrates significant benefits but is deemed outside the
timeframes established for metroplex, it will be removed from the metroplex
program and managed separately. FAA recently established a process for study
teams to formally submit issues that are identified outside the scope of the current
metroplex initiative to appropriate offices within FAA. However, it is not clear
how FAA will prioritize these projects among the Agency’s other flight
procedure work and how the metroplex program plans to track the status of those
projects. This could lead to delays in implementing these more efficient flight


19
     Deconflicting air traffic is separating aircraft arrivals and departures for two or more adjacent airports to improve
     throughput and access.
                                                                                12


procedures and increases the uncertainty as to whether these beneficial
procedures will ever be implemented.

FAA’s Communication and Collaboration With Local Airline and Air
Traffic Management Officials Has Been Limited
FAA has established an overall mechanism through the NAC to ensure continued
industry collaboration in implementing the RTCA recommendations, including
the metroplex effort. However, we identified shortcomings in communication at
the regional and local FAA levels as well as with industry. For example, FAA did
not communicate information concerning the delays of the design and
implementation teams to local facilities, and none of the officials we spoke with
at these facilities were aware of the timing for the next phase. Therefore, many
FAA and industry representatives question whether FAA has the ability to carry
out its agenda for metroplex.
Airlines that conduct the majority of operations at the Dallas locations and would
stand to benefit the most from improvements voiced concerns about the extent of
FAA’s collaborative efforts. While industry officials are on the NAC and the
metroplex study teams, some key airline representatives we interviewed said they
did not agree with the proposed solutions from the study teams. For example, an
airline representative from one of the major airlines stated that there were
deficiencies in the study team’s notional designs for the Dallas Fort Worth
International Airport and Dallas Love Field. For instance, the proposed
procedures contained numerous incremental changes in altitude rather than a
continuous descent, which reduced the benefits to the airline. According to this
representative, the new procedures preferred by the airline conflicted with FAA’s
more limited implementation approach or resulted in extensive environmental
reviews, which are not yet included in FAA’s metroplex initiative.

FAA HAS NOT FULLY ADDRESSED KEY BARRIERS TO
IMPLEMENTING TASK FORCE RECOMMENDATIONS
FAA faces organizational, policy, and training barriers that could undermine its
efforts to implement the RTCA task force recommendations and delay expected
benefits. These barriers include working effectively across diverse agency lines of
business, making policy changes, developing new flight procedures, ensuring
controllers are adequately trained on new procedures, and developing new
automation tools to allow controllers to effectively manage traffic. These barriers
vary with each metroplex location, with some more critical at certain sites.
Without a consistent, documented process to track and resolve these barriers and
mitigate risk at each site, further delays may occur. We also found that FAA’s
corrective action plans to improve policies and procedures could take years to
implement. FAA recognizes that fundamental changes are needed in how it
                                                                                                       13


manages near-term NextGen initiatives and has efforts underway that should help
address these barriers.

FAA Lacks a Coordinated and Integrated Approach To Effectively
Manage NextGen
To complete RTCA recommendations, FAA will have to work across diverse
agency lines of business—including its Aircraft Certification Service, Flight
Standards Service, and Air Traffic Organization (ATO)—which it has not done
effectively in the past. For example, as we testified in July 2009, organizational
barriers and fragmented efforts hindered FAA’s process to approve new flight
procedures. 20
Although FAA’s Flight Standards Service is responsible for approving new
procedures, representatives from Flight Standards are not yet a required part of
the metroplex teams, and it is unclear what Flight Standards’ role will be in the
design and implementation phase. FAA Headquarters officials told us that they do
not believe that Flight Standards needs full-time participation on most metroplex
teams because the Agency only plans to focus on flight procedures that rely on
current FAA standards and criteria. Further, Flight Standards is available for
consultation as necessary. However, we found different views among FAA
Headquarters, field and industry representatives, and from FAA’s NextGen
strategic plans regarding whether Flight Standards personnel should participate
on metroplex teams.
So far, Flight Standards representation on metroplex study teams has been
limited. Although one of FAA’s Office of Aviation Safety NextGen goals is to
include personnel from Flight Standards on teams to optimize PBN procedures,
only one of the metroplex study teams included a Flight Standards representative.
It will be important for Flight Standards personnel to be involved in metroplex
because Flight Standards approves all new flight procedures. Additionally, if the
study teams identify RNP procedures that will cause a change in existing
standards, Flight Standards’ early involvement could help to expedite these more
efficient procedures and ensure safety. As we have reported in the past,
coordination between Flight Standards and ATO is important in ensuring the safe
development and integration of new flight procedures. 21
In October 2010, ATO reorganized several key programs to form the Mission
Support Services organization. This group provides shared services to ATO’s
operational lines of businesses: Terminal, En Route, Oceanic, Technical
Operations, and System Operations Services. While this reorganization may help
20
     OIG Testimony Number CC-2009-086, “Challenges in Implementing Performance-Based Navigation in the U.S.
     Air Transportation System,” July 29, 2009.
21
     OIG Report Number AV-2011-025, “FAA Needs To Implement More Efficient Performance-Based Navigation
     Procedures and Clarify the Role of Third Parties,” December 10, 2010.
                                                                                                              14


resolve stovepipes within the ATO, it does not address the issue of working with
organizations outside the ATO, including Flight Standards and Aircraft
Certification. 22 FAA also established a new office in response to the task force’s
recommendation for a single point of responsibility for surface initiatives, which
span several ATO organizations. FAA is making other significant organizational
changes in how it manages NextGen, but it is too soon to determine whether these
changes will improve FAA’s ability to work effectively across different lines of
business.

FAA Has Not Yet Resolved Key Policy Issues
The task force encouraged FAA to continue to develop a “best-equipped, best-
served policy” (i.e., prioritizing air traffic control services for those users
equipped with new systems) and to revamp information sharing systems to better
manage airport surfaces. FAA recognizes that these are important issues and
continues to work with industry to reach a consensus on strategies concerning
equipage for NextGen and identifying processes and standards for data sharing.
However, FAA does not yet have a clear plan for transitioning to the new
policies.
Additionally, many air traffic control policies and procedures have not been
updated to incorporate the increased capabilities of satellite-based technologies.
For example, to accommodate PBN operations, controllers will require new
guidance on areas such as phraseology and separation requirements to allow them
to safely manage RNAV/RNP operations in a mixed equipage environment;
however, FAA has not yet updated the controller handbook with this guidance.
To its credit, the Agency recently adopted a key policy change to allow RNP
operations at airports with parallel runways, an issue that had been hindering
controllers’ ability to give pilots the clearance to land. However, this limited
action occurred only after a lengthy 4-year safety study conducted at the George
Bush Intercontinental Airport (IAH) in Houston. Further, inconsistent
interpretation of FAA’s environmental policies has caused delays. To address this
problem, FAA is standardizing environmental specialist training to ensure
consistent compliance with environmental regulations for all instrument flight
procedures, but it will take 4 to 5 years to completely develop the training
curriculum.




22
     FAA’s Aircraft Certification Service (AIR) supports NextGen by administering safety standards that govern the
     design, production, and airworthiness of aircraft, engines, and avionics.
                                                                                        15


FAA Faces Challenges With Timely Implementation of New Flight
Procedures
FAA’s process for developing and implementing new flight procedures is time-
consuming and fragmented. In a September 2010 internal study, 23 FAA
concluded that the current system is ineffective. FAA reported numerous
problems, such as the lack of an expedited process for approving procedures that
have only minor revisions, inconsistent interpretation of environmental policies
and guidance, and inconsistencies in data. To address these problems, FAA made
21 recommendations for streamlining the process for deploying new procedures.
In June 2011, FAA issued its Navigation Procedures Implementation Plan (NAV
Lean) for executing the 21 recommendations. However, the metroplex initiative
may not benefit from these significant streamlining efforts. While some of the
recommendations can be implemented within relatively short timeframes and
may provide incremental benefits when completed, realizing maximum benefits
will not be achieved until FAA completes all 21 recommendations. Those efforts
could take as long as 5 years and by that time the Agency will be nearing the end
of its metroplex program. Although airlines representatives commended FAA for
launching the NAV Lean program to expedite the deployment of high-value
procedures, they have stated that they cannot afford to wait that long because the
technology already exists today.
Implementing the NAV Lean recommendations in a timely manner will be
especially important for the Houston metroplex project. In October 2011, the
White House announced that the Houston metroplex project had been selected as
1 of 14 infrastructure projects nationwide to be expedited through more efficient
and effective permitting and environmental reviews. This initiative is one of the
Administration’s steps to help projects nationwide move more quickly from start
to finish. Through this initiative, FAA will also be held accountable for tracking
progress to ensure the project is completed within 24 months, which is much
sooner than the original timeframe of 3 years established for each metroplex
project. With the Houston project, FAA will be expected to accelerate its work by
streamlining the environmental review process, a key focus of the NAV Lean
recommendations.
FAA also published its first Aviation Safety (AVS) Work Plan in March 2010
and updated it in March 2011 to incorporate safety-related actions in response to
RTCA task force recommendations. While many of these initiatives are
underway, some of these initiatives will likely take years to complete. For
example, updating air traffic policies concerning separation standards will
require, comprehensive, and lengthy safety assessments. Another time-consuming


23
     FAA’s Navigation (NAV) Lean Instrument Flight Procedures Report, September 2010.
                                                                                                                  16


initiative involving implementing PBN for closely spaced parallel runway
operations is not expected to be completed until 2015.

FAA Faces Challenges With Training Controllers on New, Advanced
Flight Procedures
While FAA is training controllers on NextGen initiatives, FAA’s training on
existing and emerging NextGen procedures has been limited. National Air Traffic
Controllers Association officials stated that training on new RNAV and RNP
procedures should be timely and include simulator training to be effective. Yet,
FAA’s recent NextGen-related training has often only consisted of briefings
rather than comprehensive training on RNAV and RNP.

Moreover, as we also reported in January 2012, FAA’s national training program
has not yet provided critical facilities with the training resources (e.g., simulator
training) they need, and NextGen deployment will further strain training
resources as both a large number of new hires 24 and veteran controllers must learn
new air traffic procedures. The controller workforce will not only have to work
with existing systems and procedures but also transition to new roles and
responsibilities—from controlling to managing air traffic—as envisioned for
NextGen. Therefore, keeping controller training and resources up to speed with
NextGen developments and procedures will be difficult, especially at metroplex
locations. For example, our work has identified at least 8 facilities that are
included in the metroplex initiative that have more than 25 percent of their
controllers in training (the national average). 25 At these facilities, FAA will be
heavily focused on training new controllers for their regular duties at the same
time it is deploying new NextGen flight procedures.

To its credit, FAA has begun working to improve the effectiveness of its
controller training methods. For example, FAA has redesigned training courses to
accommodate changes in automation technology. However, without adequate
training and familiarity with new instrument flight procedures, controllers are
reluctant to allow pilots to use these new procedures, especially in a mixed
equipage environment where many aircraft are not equipped or approved to use
the new procedures.




24
     FAA plans to hire and train nearly 11,000 new controllers through fiscal year 2020 to replace the large number of
     controllers retiring.
25
     As we recently reported, new controllers comprise up to 25 percent of the air traffic controller workforce, with
     some high activity locations as high as 40 percent. OIG Report Number AV-2012-039, “Enhanced Oversight of
     Staffing and Training at FAA’s Critical Facilities Is Needed To Maintain Continuity of Operations,” January 12,
     2012.
                                                                                                                 17


Metroplex Benefits Are Contingent on Modernizing Systems That
Controllers Rely on To Manage Air Traffic
A roadblock for the Metroplex effort in terms of realizing the full near- and long-
term benefits of new routes is FAA’s ability to modernize the displays and
processors controllers rely on to manage takeoffs and landings, the most critical
phases of flight. The RTCA task force report, as well a February 2012 report from
the NAC, 26 emphasized that to obtain the full benefits of new performance-based
routes, controllers need new automated tools, such as the Relative Position
Indicator, 27 to help merge and sequence aircraft in complex and busy airspace.

A key segment of FAA’s modernization effort involves the installation of new
controller displays and computers at 11 high activity locations, such as New
York, Chicago, and Atlanta. However, there is uncertainty on when these
installations will be completed and when new controller tools for enhancing
capacity can be implemented. FAA will be unable to deliver the full range of
benefits from its metroplex initiative, including more flexible routes, or introduce
new capabilities until the systems controllers rely on to separate aircraft are
modernized. In a separate audit, we are examining FAA’s efforts in modernizing
terminal automation.

CONCLUSION
NextGen is an important effort to fundamentally change the way air traffic is
managed and enhance the capacity and efficiency of the NAS. FAA’s response to
the RTCA task force is an initial but important step toward implementing
NextGen. However, FAA’s success in addressing the task force’s
recommendations depends on timely follow-through and overcoming key
barriers. To provide a solid foundation for NextGen, FAA must resolve the
safety, policy, training, and organizational issues addressed by the task force.
Further, both Government and industry must synchronize their planning and
implementation efforts to effectively roll out NextGen initiatives and realize
tangible benefits. Continued uncertainty about these efforts could undermine
industry’s commitment to investing in NextGen technology—a critical element
for successful implementation.




26
     Applying the Metroplex Prioritization Criteria & Mapping the Integrated Capabilities to Identified Metroplexes,
     February 2012.
27
     The Relative Position Indicator is automation pioneered by the MITRE Corporation to help controllers manage
     performance-based navigation operations at busy airports. The tool accounts for complex aircraft flight path and
     allows controllers to detect potential conflicts and address them sooner than with current technology.
                                                                                18


RECOMMENDATIONS
1. Develop and commit to a plan with milestones for the more integrated and
   sophisticated metroplex capabilities as envisioned by airspace users and the
   task force.

2. Establish a process to select metroplex team leads well in advance of the time
   that design and implementation teams are scheduled to begin and include all
   stakeholders, including Flight Standards’ personnel, involved in implementing
   new flight procedures.

3. Evaluate combining the metroplex study and design team processes to
   accelerate the completion of FAA’s metroplex initiative.

4. Adequately document and prioritize projects identified by metroplex teams
   that have the potential for significant benefits, but are not included in
   metroplex.

5. Establish a formal mechanism to communicate metroplex progress that allows
   continual feedback and coordination with airlines and local FAA air traffic
   officials as work progresses at each metroplex site.

6. Develop a comprehensive RNAV/RNP controller training program on
   applying new metroplex advanced procedures in a mixed-equipage
   environment.

7. Establish a formal process for reporting barriers identified by metroplex teams
   (i.e., policies, procedures, operational approval processes, training, criteria,
   and equipage and technology issues) and put in place a mechanism to ensure
   they are adequately resolved.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on May 14, 2012, and received its
response on July 3, 2012. FAA’s response is included in its entirety as an
appendix to this report. FAA concurred or partially concurred with six
recommendations and did not concur with one recommendation. Based on FAA’s
response, we consider recommendation 2 resolved but open pending completion
of planned actions. We also consider recommendation 5 resolved and closed.
However, we are concerned that FAA’s responses did not meet the intent of
recommendations 1, 4, 6, and 7. In addition, we are requesting a target date for
the alternative actions proposed for recommendation 3, as detailed below.
                                                                                  19


FAA concurred with recommendation 1 and requested that we close it based on
milestones established in FAA’s current metroplex initiative. However, as stated
in our report, this effort does not include milestones for completing an approach
that integrates other related capabilities recommended by the task force, such as
better managing surface operations. As FAA indicated in its response, the NAC
will be issuing recommendations in this area in September 2012; therefore, FAA
should be well positioned at that time to develop milestones. Accordingly, we are
requesting that FAA provide a target date for completing a detailed plan with
milestones for the more integrated metroplex approach.

FAA did not concur with recommendation 3, but requested that we close the
recommendation based on the Agency’s determination that combining the study
and design phases would not produce any benefits. Instead, FAA provided
alternative actions to streamline the overall metroplex process using lessons
learned from the Houston Expedited metroplex project. FAA’s planned
alternative actions meet the intent of our recommendation; however, we are
requesting that the Agency provide us with a target date for these actions.

FAA concurred with recommendation 4 and requested that we close it based on a
recently developed process outlined in the Agency’s metroplex operational plan.
However, as stated in our report, FAA’s current process for prioritizing and
tracking those projects is unclear—an issue that has also prompted concerns by
industry representatives. Accordingly, we request that FAA provide additional
information regarding the process established to prioritize and track those projects
that are currently outside the scope of the metroplex initiative.

FAA partially concurred with recommendation 6 and requested that we close it
based on future plans to train controllers on procedures developed in the
metroplex initiative and strategic efforts to align current training with NextGen
future training requirements. However, FAA did not provide target dates for any
of the future training initiatives. Additionally, FAA responded that it is too soon
to develop controller training on operations in a mixed equipage environment.
Yet, controller concerns about the lack of training on managing aircraft with
differing capabilities are already limiting the use of more advanced procedures at
several airports today. Accordingly, we request that FAA reconsider its position
to delay this advanced training and provide target dates for accomplishing the
training.

FAA requested that we close recommendation 7 based on a recent process
established in the metroplex operational plan. However, this process does not
include a procedure or mechanism to verify that identified barriers, such as
outdated policies or a lack of training, are adequately resolved, particularly at the
local level. To advance NextGen and realize expected benefits, FAA must
aggressively track its progress on resolving such barriers, so that the Agency can
                                                                            20


move to the more integrated approach envisioned by the task force. Accordingly,
we request that FAA provide clarifying information on actions taken or planned
to ensure identified barriers are adequately resolved.

ACTIONS REQUIRED
FAA’s actions taken and planned for recommendation 2 are responsive and we
consider it resolved but open pending completion of the planned actions. We
consider recommendation 5 resolved and closed. In accordance with DOT Order
8000.1C, we request that FAA provide additional information or reconsider its
position for recommendations 1, 3, 4, 6, and 7 within 30 days of this report.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Robin Koch, Program Director, at (404) 562-3770.


                                      #

cc: Pierre McLeod, AAE-100
    Martin Gertel, M-1
                                                                                                        21


      EXHIBIT A. KEY RTCA TASK FORCE RECOMMENDATIONS FOR
      NEXTGEN’S MID-TERM PHASE


Rec’s                 Area                                     Recommended Capability
  4       Airport Surface Operations   Improve the management of airport taxiways, gates, and parking
                                       areas by revamping systems for sharing information between FAA,
                                       airline operations centers and airports. Candidate locations include all
                                       major airports beginning with the New York area airports.
  5       Runway Access                Improve the use of converging or closely spaced runways during low
                                       visibility conditions. Candidate airports include Kennedy, Las Vegas,
                                       and Newark.
  4       Metroplex Airspace           Improve the capacity of airspace that affects multiple airports near
                                       large metropolitan areas, including Chicago, New York/New Jersey,
                                       and Southern California.
  4       High-Altitude Cruise         Improve high-altitude flights by, among other things, increasing the
                                       availability of real-time data on the status of airspace used jointly by
                                       civilian and military aircraft. The first candidate location is Minneapolis
                                       Center.
  2       Access to the National       Improve service at smaller airports by implementing more precision
          Airspace System              approaches and departures and expanding ways to track aircraft in
                                       non-radar airspace. Full range of candidate locations is still under
                                       development.
          Cross-Cutting
  4       Integrated Air Traffic       Create an Integrated Air Traffic Management System that leverages
          Management                   new technologies and collaboration with users and implement
                                       solutions to traffic flow problems that are effectively integrated across
                                       air traffic control domains to achieve service providers’ and users’
                                       efficiency goals.
  5       Data Communications          Improve cruise and transition operations by using data
                                       communications to enable more efficient use of available or forecast
                                       capacity in the National Airspace System. Increase the ability to better
                                       adapt to changing conditions through improved dissemination of
                                       tactical reroutes around weather forecast and congestion.
          Overarching
  1                                    Achieve existing separation standards.
  1                                    Incentivize equipage.
  1                                    Streamline the operational approval and certification processes for
                                       new flight procedures.
  1                                    Establish institutional mechanisms for transparency and collaboration
                                       in the planning, implementation, and post-execution assessments.
Total:
 32
      Source: OIG




      Exhibit A. Key RTCA Task Force Recommendations for NextGen's
      Mid-Term Phase
                                                                                                        22


EXHIBIT B. OBJECTIVES, SCOPE, AND METHODOLOGY
At the request of the Chairmen and Ranking Members of the House Committee on
Transportation and Infrastructure, and Subcommittee on Aviation, we performed
an audit of FAA’s response to the RTCA Task Force recommendations. The
objectives of this audit were to assess the extent to which FAA is (1) responding to
the Task Force recommendations, including adjusting its budgets and establishing
mechanisms for continued industry collaboration, and (2) addressing barriers that
may hinder FAA’s ability to successfully implement the recommendations. On
December 21, 2010, we issued an interim report on the status of FAA’s response
to RTCA’s recommendations to then Ranking Members Mica and Petri and
Chairman Oberstar and Costello. 1 As agreed with the requesters, we assessed
FAA’s overall response to the task force recommendations, but focused our audit
specifically on FAA’s efforts to implement an initiative known as “metroplex,”
which aims to improve the efficiency of airspace that affects multiple airports near
large metropolitan areas.

To determine the extent to which FAA responded to the recommendations, we
analyzed the March 2010 and March 2011 NextGen Implementation Plans to
determine how FAA allocates its resources and the milestones to implement the
recommendations. Further, we reviewed the 2010 NextGen Segment
Implementation Plan for detailed milestones. We also reviewed work at FAA
Headquarters and interviewed officials at program offices responsible for planning
and executing the RTCA recommendations in each of the five major areas along
with the cross-cutting and overarching recommendations. We met with the
Director of NextGen Implementation Performance & Reporting and the Director
of NextGen Integration and Implementation to determine how FAA is managing
implementation.

To assess the extent to which FAA is adjusting its budgets we examined FAA’s
operational plans, project level agreements, Capital Investment Plans, and other
budget documents. We interviewed FAA budget officials and NextGen Solution
Set Managers. Finally, we reviewed FAA’s portfolio management program.

To examine the mechanisms for continued industry collaboration, we met with
several major airline representatives. We discussed their views of the metroplex
effort to date. Further, we interviewed the RTCA Inc. president and attended the
NextGen Advisory Committee (NAC) and subcommittee (NACSC) meetings.
During these meetings we engaged industry members to determine their
assessment of FAA’s efforts to respond to the task force recommendations.

1
    OIG Report CC-2011-001, Letter to Chairmen Oberstar and Costello and Ranking Members Mica and Petri
    Regarding FAA's Efforts to Implement RTCA Task Force Recommendations for NextGen, December 21, 2010. OIG
    reports are available on our website: www.oig.dot.gov.


Exhibit B. Objecti ves, Scope, and Methodology
                                                                                   23


To assess barriers that may hinder FAA’s ability to successfully implement the
task force recommendations, we evaluated any differences between the
recommendations and FAA’s plan. We reviewed the results of the Washington
DC, North Texas (Dallas), Houston, Northern California, and Charlotte metroplex
study teams, and interviewed several members of the Washington DC and North
Texas teams. We also conducted site visits to key air traffic facilities in the Dallas
and Washington DC metropolitan areas.

We conducted this audit from June 2010 through April 2012 in accordance with
generally accepted Government auditing standards prescribed by the Comptroller
General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence that provides a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




Exhibit B. Objecti ves, Scope, and Methodology
                                                                            24


EXHIBIT C. ORGANIZATIONS VISITED OR CONTACTED

FAA Headquarters, Washington DC
  • Air Traffic Organization
        o NextGen and Operations Planning
        o Mission Support Services
        o Terminal Operations Services
        o En Route and Oceanic Services
  • Aircraft Certification Service
  • Flight Standards Service
  • Office of Environment and Energy

FAA Field Facilities
  • Fort Worth Air Route Traffic Control Center (Center), Fort Worth, TX
  • Dallas Forth Worth (DFW) International Airport Air Traffic Control
    Tower, Fort Worth, TX.
  • DFW Terminal Radar Approach Control (TRACON), Dallas, TX
  • Eastern Service Office, College Park, GA
  • Fort Worth Naval Air Station Joint Reserve Base, Fort Worth TX
  • Meacham International Airport, Fort Worth TX
  • Potomac TRACON, Warrenton, VA
  • Southern Region Office, College Park, GA
  • Washington Center, Leesburg, VA

Aviation Stakeholders
  •   American Airlines, Fort Worth, TX
  •   Delta Airlines, Atlanta GA
  •   GE Aviation PBN Services, Renton WA
  •   MITRE Corporation, McLean VA
  •   National Air Traffic Controllers Association (NATCA), Washington DC
  •   RTCA Inc., Washington, DC
  •   US Airways, Phoenix, AZ
  •   Southwest Airlines, Dallas, TX
  •   Air Line Pilots Association, Washington, DC




Exhibit C. Organizations Visited or Contacted
                                                           25


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Robin Koch                              Program Director

Coletta Treakle                         Project Manager

Raymond Denmark                         Senior Analyst

Kevin Montgomery                        Senior Analyst

Claudia Estrada                         Analyst

James Ovelmen                           Analyst

Andrea Nossaman                         Senior Writer

Audre Azuolas                           Writer-Editor




Exhibit D. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                 26



                   Federal Aviation
                   Administration

Memorandum
Date:      July 3, 2012
To:        Jeffrey B. Guzzetti, Director, Assistant Inspector General for Aviation and
           Special Program Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   FAA Response to Office of Inspector General (OIG) Draft Report on
           Implementing Near-Term NextGen Capabilities


As part of the implementation of the Next Generation Air Transportation System
(NextGen), FAA is working with industry recommendations of near-term improvements
through the initiation of the Optimization of Airspace and Procedures in the Metroplex
(OAPM) effort. The aim of this effort is to have study groups identify near-term
Performance Based Navigation (PBN) improvements coupled with airspace sector
adjustments that can be completed in a major metropolitan area in approximately three
years. These metroplex areas include complicated airspace management issues usually
encompassing a number of major commercial airports, as well as general aviation
airports. FAA will continue to work with the aviation community to meet the broader set
of integrated metroplex capabilities beyond airspace and procedures, as they mature and
are ready for operational use. Given the complexity of operations in the National
Airspace System (NAS) and the number of capabilities expected in the mid to far term
such as Data Communications, Automatic Dependent Surveillance – Broadcast, etc.,
Metroplex work will be ongoing for years to come.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Develop and commit to a plan with milestones for the more
integrated and sophisticated metroplex capabilities as envisioned by airspace users and
the task force.

FAA Response: Concur. FAA has committed to an integrated approach for delivery of
airspace and procedures through OAPM. The OAPM initiative is an FAA program
designed to deliver the benefits of Performance Based Navigation through the
development and deployment of Area Navigation (RNAV) and Required Navigation
Performance (RNP) in terminal, en route, and approach procedures in a focused
geographic area called a metroplex. Benefit delivery is predicated on consistent and
repeatable processes used to identify, design, and deploy the right procedure(s) for the


Appendix. Agency Comments
                                                                                        27

right metroplex location. There are always a wide range of possible solutions to deliver
benefits. Those solutions must integrate with all air traffic flows to allow safe and
efficient operations. An RNP approach is one kind of PBN solution possible. The
OAPM Study Teams consider all PBN solutions but whether RNP is chosen as a solution
depends on whether it will provide benefit to the overall operation of the Metroplex when
all operational needs are considered. RNP does not work everywhere and will not be
deployed everywhere in the near to mid-term. There are 13 metroplex sites that OAPM
will cover in the next 5 years. Those are DC Metro; North Texas; Charlotte; Northern
California; Houston; Atlanta; Southern California; Florida; Phoenix; Chicago; Memphis;
Cleveland/Detroit; and Boston. Procedures are currently in development in DC Metro,
North Texas; Charlotte; Houston; Atlanta; and Northern California with implementations
beginning in FY13 and FY14. Procedure development will begin in Southern California
in FY13; with implementation to begin in FY15. Study activities began in Florida in
FY12; development will be in FY13 and implementation will begin in FY15. Work in
Phoenix and Chicago will start in FY13 with implementation beginning in FY15.
Memphis; Cleveland/Detroit; and Boston begin work in FY14 with implementation
beginning in FY16 and FY17. The OAPM Dash Board Summary provided in
Attachment 1 at the end of this document shows the milestones for the OAPM project.

In addition, PBN work is being done at a host of other sites outside the OAPM program.
Some of those sites are Seattle; Las Vegas; Reno; Charleston; Louisville; Raleigh;
Denver; Nashville; LaGuardia; St. Louis; Philadelphia; Anchorage; Long Beach; and
Minneapolis. Over 750 PBN departure and arrival procedures are in the NAS today with
another 300 planned within the next 18 months. In addition, over 300 RNP Authorization
Required are in the NAS today with another 120 or so planned within the next 18 months.

As previously noted, there are other NextGen capabilities that will be integrated into the
Metroplex as they mature. FAA is working collaboratively with the NextGen Advisory
Committee (NAC) on the implementation of the broader set of integrated metroplex
capabilities beyond airspace and procedures. The NAC recently completed the mapping
of NextGen capabilities to specific metroplexes and FAA expects to have additional
inputs from the Committee in the form of actionable recommendations in September
2012. FAA request that this recommendation be closed.

Recommendation 2: Establish a process to select metroplex team leads well in advance
of the time that design and implementation teams are scheduled to begin and include all
stakeholders, including Flight Standards’ personnel, involved in implementing new flight
procedures.

FAA Response: Partially Concur. The FAA agrees that early selection of team leads
will be a critical factor in the timeliness and success of this effort. FAA now has a
process to recruit and select qualified team leads in place since the roll-out schedule is
complete. To meet programmatic needs, we are using a combination of permanent and
detailed Headquarters management positions through competitive selection processes to
oversee OAPM activities. The job announcements for the permanent selections are in
process in the Office of Human Resources. We expect permanent selections to be in



Appendix. Agency Comments
                                                                                            28

place by the end of CY12. In addition, the Air Traffic Organization instituted a “detail”
approval process in early FY12 to insure proper coordination and approvals were
obtained for all detailed personnel. This process has worked smoothly to date to insure
release dates and adequate lead time.

Our current formal processes such as the 18-Step PBN process include multiple lines of
business, Aeronautical Navigation Products, and Flight Standards, among others, by
directive. Flight Standards is also engaged at the program level through the Metroplex
Core Team, and has knowledge of all OAPM procedure production plans through the
Regional Airspace Procedures Team/National Airspace Procedures Team process. Since
OAPM primarily focuses on procedures that meet current standards and criteria, full-time
participation by Flight Standards is not necessary, though they are available for additional
consultation as needed. FAA believes that we have met the intent of the recommendation
and request that this recommendation be closed.

Recommendation 3: Evaluate combining the metroplex study and design team
processes to accelerate the completion of FAA’s metroplex initiative.

FAA Response: Non-concur. FAA has evaluated combining study and design. The
study phase is conducted by non-locally staffed study teams that identify issues and
propose potential PBN and/or airspace solutions through facility and industry interface
meetings. The result of this phase is a set of conceptual designs, with a high-level
assessment of benefits, costs, and risks.

Design & Implementation (D&I) teams are more locally focused as it is recognized that
local expertise and acceptance is a critical part of the more intricate D&I process.
Combining the two team structures would not take full advantage of the separate
strengths that each team provides. Additionally, the study results are used to determine if
potential benefits warrant proceeding with subsequent phases. Therefore, FAA believes
that combining these two teams will not produce any benefits to the metroplex initiatives.
FAA is however committed to streamlining the overall OAPM process wherever possible
using lessons learned. FAA believes the lessons learned from the Houston Expedited
OAPM activity could allow FAA to shorten the timeline for subsequent projects.

Recommendation 4: Adequately document and prioritize projects identified by
metroplex teams that have the potential for significant benefits, but are not included in
metroplex.

FAA Response: Concur. Study teams document all identified issues and categorize
those that are outside of the OAPM scope (i.e., outside timeline, beyond Environmental
Assessment, etc.) for consideration within other initiatives. The OAPM Operational Plan
outlines the process that will be followed:
       “If the Study Team identifies issues that cannot be addressed within the
       timeframe, budget and/or criteria boundaries of an OAPM project,
       these issues are directed to appropriate offices within the FAA. These
       issues are to be documented in a formal memo by the Operational


Appendix. Agency Comments
                                                                                        29

       Program Manager for OAPM for signature by the Airspace Services
       Director.”

FAA request that this recommendation be closed.

Recommendation 5: Establish a formal mechanism to communicate metroplex progress
that allows continual feedback and coordination with airlines and local FAA air traffic
officials as work progresses at each metroplex site.

FAA Response: Concur. The FAA has a formal mechanism to inform internal and
external FAA stakeholders on the status and progress of OAPM efforts. Internally,
weekly teleconferences are held with Headquarters, Facility and Service Area personnel.
The NextGen Management Board reviews status on a monthly basis, and teams conduct
regular briefings on site, and at Service Areas/Service Centers. Externally, the FAA
shares progress through many groups including the NextGen Advisory Committee
Airspace and Procedures Working Group and regional Task Groups, Airlines for America
(A4A) Operations Group and A4A Air Traffic Operations Council. Status and progress
is also shared via the White House Infrastructure Dashboard and the NextGen websites.
A summary of the dashboard report for the OAPM project is provided (attachment 1).
FAA request that this recommendation be closed.

Recommendation 6: Develop a comprehensive RNAV/RNP controller training program
on applying new metroplex advanced procedures in a mixed-equipage environment.

FAA Response: Partially Concur. The FAA concurs that a controller training program
commensurate with the scope of the changes introduced at each metroplex site will be
developed. In the 2013-2015 metroplex time frame, operational improvements are
planned to be based on existing equipage to improve efficient descents, diverging
departure paths and the decoupling of operations among airports within the metroplex
airspace. These types of changes can be handled using existing controller training
development and deployment techniques, tailored to the unique criteria of each metroplex
environment.

The FAA has strategic efforts underway to align current training with NextGen future
training requirements and is working closely with the NextGen Human Factors offices on
a Strategic Training Needs Assessment initiative. The curriculum architecture effort aims
to align training with a comprehensive occupational job task analysis so that critical
functions can be traced to training elements such as instructional methods, training
equipment (e.g., simulation), and assessment strategy. In addition, the FAA has funded
research projects to examine NextGen training alternatives and methodologies.

While it remains possible that elements of advanced training on operations in a mixed
equipage environment will be needed in the near term to support metroplex activities at
certain locations, the operational plan for such a change needs to mature further prior to
training development. FAA believes that we have met the intent of the recommendation
and request that this recommendation be closed.



Appendix. Agency Comments
                                                                                      30


Recommendation 7: Establish a formal process for reporting barriers identified by
metroplex teams (i.e., policies, procedures, operational approval processes, training,
criteria, and equipage and technology issues) and put in place a mechanism to ensure they
are adequately resolved.

FAA Response: Concur. FAA formal process for reporting barriers exist in the OAPM
Operational Plan. Barriers that are identified by teams are documented and forwarded to
the appropriate FAA office for resolution as called for in the OAPM Operational Plan.
FAA request that this recommendation be closed.




Appendix. Agency Comments
                            31

Attachment 1




Appendix. Agency Comments
